r

7814
No.

IN THE
^Pieme Court, US'
filed

SUPREME COURT OF THE UNITED STATES

APR 1 6 2021
OFFICE OF THE Cl FRk*

Brandon Bowie - Petitioner
VS.
Hamilton County Juvenile Court, et al - Respondent(s)
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
v
V

PETITION FOR WRIT OF CERTIORARI

BRANDON L. BOWIE
1608 Brentnell Ave.
Columbus, Ohio 43219
614-499-7831

APR 2 0 2021
6

QUESTION(S) PRESENTED
Did the Americans with Disability Act violate the sovereign immunity doctrine of the 1 lt!l
Amendment when, based on Congress’s 14th Amendment enforcement powers of the Due
Process Clause, it allowed individuals to sue states for denying them services based on their
disabilities?
Under the Rehabilitation Act and the Americans with Disability Act..can Brandon Bowie
establish that Hamilton County Juvenile Court (HCJC) denied/prevented/interfered with his right
to be reasonably accommodated in order to participate in court proceedings that Bowie initiated.
HCJC granted/signed Bowie’s reasonable accommodation prior to hearing but then abruptly
denied those same accommodation at hearing time which essentially resulted in a breach of
contract by the court resulting in denied court access, further, this case could impact hundreds, if
not thousands of disabled individuals who are being denied due process and equal protection
under the law in Cincinnati, Ohio.
Whether the District Court erred by dismissing Bowie’s disability case, District Judge Barrett on
3/22/2019 allowed his disability discrimination case to proceed against HCJC, et al, however,
Magistrate Bowman overruled Judge Barrett’s decision, can a Magistrate overrule a District
Judge, then strategically switch the case to another judge, Judge McFarland who promptly
dismissed Bowie’s case without answering how a Magistrate can overrule a District Judge.

7

f

V. List of Parties and Related Cases
Bowie v. Hamilton County Juvenile Court, Hamilton County, OH, Magistrate Catherine
Kelley (Official Capacity), and Judge Sylvia Hendon (Official Capacity), No.l:18-cv395, U.S. District Court for the Southern District of Ohio, Western Division, Judgment
entered May 31, 2020.
Bowie v. Hamilton County Juvenile Court, Hamilton County, OH, Magistrate Catherine
Kelley (Official Capacity), and Judge Sylvia Hendon (Official Capacity), No.20-3743,
U.S. Court of Appeals for the Sixth Circuit, Judgment entered January 20, 2020.

8

r

VI. Table of Contents
TABLE OF CONTENTS
OPINIONS BELOW,

11

JURISDICTION.

12

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

13

STATEMENT OF THE CASE

14

REASONS FOR GRANTING THE WRIT

31

CONCLUSION

34

INDEX TO APPENDICES

APPENDIX A, Court of Appeals, Six Circuit Decision 1/20/2021

1A

APPENDIX B, District Court R&R dated 1/09/2019, Order dated 3/22/2019 & Decision
dated 5/31/2020
IB
APPENDIX C, Court of Common Pleas, HCJC, Objection to the Magistrate’s Decision
Dated 7/25/2017
1C
APPENDIX D, Medical Request for Requested Reasonable Accommodations from
Doctor dated 1/12/2017.............................................................

9

ID

Table of Authorities
Jaegly v. Lucas Cty. Bd. of Commissioners, #16-1982 (N.D. Ohio 12/6/2017

17,18

King v Marion Circuit Court

20

Pace v. Bogalusa City Sch. Bd. 403 F 3d 272 (5lh Cir. 2005) (en banc)....................

28

Popovich v. Cuyahoga County Court of Common Pleas, 276 F.3d 808, 813-16, 817
(6th Cir.) (en banc), cert, denied, 537 U.S. 812 (2002)

18,25,31

Tennessee v. Lane, 541 U.S. 509 (2004)....................

25,29

FEDERAL STATUTES, RULES AND REGULATIONS

28 U.S.C. § 1254(1)

13

42 U.S.C. § 12131

13

42 U.S.C. § 12132

13

28 C.F.R. Part 35.101

13

FED. R. CIV. R 23

13

10

IX. Opinions Below
Bowie v. Hamilton County Juvenile Court, Hamilton County, OH, Magistrate Catherine
Kelley (Official Capacity), and Judge Sylvia Hendon (Official Capacity), No.20-3743,
U.S. Court of Appeals for the Sixth Circuit, Judgment entered January 20, 2020.
(Appendix A) Not Recommended for Publication
Bowie v. Hamilton County Juvenile Court, Hamilton County, OH, Magistrate Catherine
Kelley (Official Capacity), and Judge Sylvia Hendon (Official Capacity), No. 1:18-cv395, U.S. District Court for the Southern District of Ohio, Western Division, R&R
entered on 1/9/2019 (Appendix B), Opinion entered March 22, 2019 (Appendix B) and
Judgment entered May 31, 2020 (Appendix B). Not sure if published.

11

X. Jurisdiction
For cases from the federal courts:
X

__

The date on which the United States Court of Appeals decided my case on
5/31/2020.
No petition for rehearing was timely filed in my case.

__ A timely petition for rehearing was denied by the United States Court of Appeals
on the following date :
, and a copy of the order denying rehearing
appears at Appendix _
The extension of time to file the petition for a writ of certiorari was granted to and
including
date on
dated in Application No.
A
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1)

12

XI. Constitutional and Statutory Provisions Involved
The Eleventh Amendment of the United States Constitution provides:
The judicial power of the United States shall not be construed to extend to any
suit in law or in equity, commenced or prosecuted against one • of the United States by
citizens of another state, or by citizens or subjects of any foreign state.
U.S. CONST, amend. XI.
The Fourteenth Amendment of the United States Constitution provides in
pertinent part:
Section I. All persons bom or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and the state wherein they reside. No
state shall make or enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any state deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
0 o o

Section 5. The congress shall have the power to enforce, by appropriate
legislation, the provisions of this article.
U.S. CONST, amend. XIV.
Title II of the Americans with Disabilities Act of 1990 and the Rehab Act
provides in pertinent part:
(1) Public entity the term "public entity" means - (A) any State or local
government; (B) any department, agency, special purpose district, or other
instrumentality of a State or States or local government;
42 U.S.C. § 12131. Title II further provides: Subject to the provisions of this
subchapter, no qualified individual with a disability shall, by reason of such disability, be
excluded from participation in or be denied the benefits of the services, programs, or
activities of a public entity, or be subjected to discrimination by any such entity.
42 U.S.C. § 12132.

13

XII. Statement of the Case
The Complaint alleged that Defendants have violated The Rehabilitation Act and Title II
of the Americans with Disabilities Act of 1990 ("ADA'), 42 U.S.C. § 12131, et seq., and its
regulations, 28 C.F.R. Part 35.101, et seq., as more fully described below:
Brandon Bowie’s complaint originated in child-visitation proceedings before Hamilton
County Juvenile Court (HCJC) in Cincinnati that was initiated by the Plaintiff. Brandon Bowie
who is disabled under 42 U.S.C. §12131 due to a neurological condition from a work-related
injury in 2010 was excluded/denied from testifying at a court proceeding on 6/20/2017 after
being granted requested reasonably accommodations prior to hearing time.
Initially, in order to prove a reasonable accommodation claim, it must be found that such
an accommodation is necessary to afford an individual an equal opportunity to enjoy their
property as compared to their peers without disabilities. The accommodation must also be
deemed reasonable. Although, HCJC is claiming that Bowie was excluded for not being present,
his reasonable accommodations outlined his disability and his inability to be present by his
doctor, Dr. Altic who requested an alternate method of testifying such as video conferencing.
The court was supposed to advise the Plaintiff and his attorney of any conflicts/issues that
involved this matter prior to hearing time, instead Magistrate Kelley signed/granted the Plaintiff
requested reasonable accommodations which was to testify by telephone or Skype, ahead of the
actual hearing, and then at hearing time abruptly denied those same accommodations that was
previously granted.
Bowie’s attorney pleaded with the court to please allow “one” continuance to give Bowie
who resides in Columbus, Ohio and would need to travel to Cincinnati, Ohio, an opportunity to
appear which was denied stating that Bowie needed to appear in person. Magistrate Kelley

14

initially granted Bowie’s reasonable accommodations to testify by phone or Skype, but a hearing
time Magistrate Kelley breached that contractual agreement. Magistrate Kelley was well aware
of Bowie’s medical condition/disability causes some challenges with traveling which was
previously documented by Bowie’s doctor and submitted to HCJC several times, however, on
6/20/2017 those documents were submitted again, Magistrate Kelley reviewed those documents
and signed them, therefore, Bowie’s inability to be present on 6/20/2017 was a direct result of his
disability, see Attorney Whitfield’s testimony on 3/23/2018 (HCJC, see court transcript, page 9),
if Magistrate Kelley had an issue with another formal requested reasonable accommodations
filing ahead of the hearing, it was never brought to Attorney Whitfield’s attention, Magistrate
Kelley did not complain about Atty Whitfield filing the motion that morning, instead Magistrate
Kelley granted/signed the requested reasonable accommodations prior to the hearing that
morning, then at hearing time, abruptly denied Bowie’s requested reasonable accommodations
without prior notice stating “under the need to evaluate his credibility”, however, according to
the ADA, Title II & the Rehab Act, when reasonable accommodations are denied, there must be
some form of communication to alternately accommodate the disabled individual, clearly that
did not occur, but remember the Plaintiff was granted his requested reasonable accommodation
and then denied in the same day, HCJC currently has no guidance for this matter.
When Magistrate Kelley denied Bowie’s access to court, it resulted in denying his access
to participate in a court proceeding, waiving his appearance was not accommodating, as it
resulted in the Plaintiff s filings being dismissed even though his attorney was present, and
Bowie was found guilty of contempt. Magistrate Kelley’s denial of Bowie’s requested
reasonable accommodations was discriminatory and strategic, and a breach of contract since
Magistrate Kelley initially granted/signed Bowie’s requested reasonable accommodations.

15

Further, Attorney Whitfield stated that he filed another formal motion for Bowie to testify
by telephone or Skype the morning of the pre-trial hearing on 6/20/2017 which was
granted/signed by Magistrate Kelley, this information is provided by the testimony of Whitfield,
however, it is not noted on the court’s journal which is not reliable, see Magistrate Bowman’s
statement (the R & R dated 5/31/2020, page 2, footnote 1, Magistrate Bowman notes that the
journal entry is not entirely reliable, it appears the HCJC does not always update the journal,
therefore, in the interest ofjustice, there is a need to review the court transcript). The testimony
of Attorney Whitfield noted on court transcript dated 3/23/2018, pages 9-10 accurately details
how Magistrate Kelley granted the formal motion to testify by telephone or Skype prior to the
9:00 a.m. hearing on 6/20/2017, then abruptly denied reasonable accommodations at hearing
time, Whitfield informs Kelley that the formal motion that was filed and granted that morning
ahead of the hearing had a letter from Dr. Altic attached that requested reasonable
accommodations for Bowie to testify by telephone or Skype due to difficulty traveling, however,
Kelley refused to allow Bowie his “requested” reasonable accommodation, (HCJC, see court
transcript dated 3/23/2018, page 9-10), also (HCJC, see court transcript dated 6/20/2017, page 4 5), Whitfield says, “This morning we filed a motion to waive my client’s appearance, attached to
that motion is a letter from a doctor dated January 12, Mr. Bowie has some health issues that
prevent him or limit him from traveling, driving an extension length. He resides in Columbus,
Ohio. So, he asked the court to waive his appearance but allow his participation in any hearing or
any future hearing via Skype or videoconferencing, telephone conference or whatever the court
might see fit”. Further, Whitfield informs Magistrate Kelley that the formal motion that was filed
prior to hearing time was granted/signed by her which allowed Bowie to testify by telephone or
Skype. However, at hearing time, it was denied. In the interest ofjustice, Magistrate Kelley was

16

informed by Whitfield of Bowie’s health challenges, therefore, Kelley had a duty to ensure
Bowie’s participation in court proceedings, Kelley agreed to allow Bowie to testify by telephone
or Skype on (HCJC, see court transcript, 1/6/2017, page 5) stating that the court did not want to
inconvenience Bowie, so clearly something changed. If Bowie’s presence was required, a
continuance would have been reasonable instead of denying Bowie the opportunity to participate
in a court proceeding, unable to defend himself and dismissing all of Bowie’s filings and motions
which was the primary reason that HCJC found him guilty of contempt, although, Bowie
maintained his innocence. Magistrate Kelley’s actions shows willful indifference and intentional
discrimination knowing full well that Bowie’s health condition caused challenges with traveling
from Columbus to Cincinnati and refusing to grant one continuance. Then, Attorney James
Whitfield filed an objection to the Magistrate’s Decision stating that the denial of reasonable
accommodations was a direct violation of ADA, Title II which is federal law (See attached,
Objection to Magistrate’s Decision Amended dated 7/25/2017, Appendix C). Then on
The Sixth Circuit Court erred in disregarding Judge Barrett’s decision on 3/22/2019,
Magistrate Judge (Bowman) explained that the Hamilton County Juvenile Court is not a legal
entity capable of being sued. “Absent express statutory authority, a court can neither sue or be
sued in its own right.” Burton v. Hamilton Cty. Juvenile Court, No. 1:04-CV-00368, 2006 WL
91600, at *5 (S.D. Ohio Jan. 11, 2006) (quoting Malone v. Court of Common Pleas of Cuyahoga
County, 45 Ohio St. 2d 245, 248, 344 N. E. 2d 126 1976)); see also Steward v. Lucas Cty.
Juvenile Court, Case No. 3:08cvl603, 2009 WL 3242053, at *6 (N.D. Ohio Oct. 2, 2009)
(holding that the Lucas County Juvenile Court cannot be sued in its own right). However,
According to Judge Barret, one federal district court has recently concluded that Title II of the
Americans with Disabilities Act and Section 504 of the Rehabilitation Act provide the “express

17

statutory authority” necessary to sue the domestic relations division of an Ohio court of common
pleas. Jaegly v. Lucas Cty. Bd. of Commissioners, No. 16-CV-1982, 2017 WL 6042237, at *4
(N.D. Ohio Dec. 6, 2017). In addition, the Sixth Circuit has held that Title II of the ADA validly
abrogated Eleventh Amendment sovereign immunity in cases where it is used to enforce Due
Process rather than Equal Protection guarantees. Popovich v. Cuyahoga County Court of
Common Pleas, Domestic Relations Division, 276 F.3d 808, 813-16, 817 (6th Cir.) (en banc),
cert, denied, 537 U.S. 812 (2002) (remanding case against state court for retrial because “refusal
of the state court to provide plaintiff with closed captioned translation of the proceeding, or other
forms of hearing assistance, may constitute an unreasonable exclusion of plaintiff from
participation in the proceeding under principles of due process of law.”); see also Mingus v.
Butler, 591 F.3d 474, 483 (6th Cir. 2010) (Eleventh Amendment immunity abrogated as long as
ADA claim seeks only the level of review to which the plaintiff would otherwise be entitled (i.e.,
“rational basis” review in a disability case) because doing so would not “creat[e] a higher
standard of liability” for the defendant). In addition, the Sixth Circuit has held that Ohio has
waived Eleventh Amendment immunity against Rehabilitation Act claims. Robinson v. Univ. of
Akron Sch. of Law, 307 F.3d 409, 411 (6th Cir. 2002) (citing Nihiser v. Ohio Environmental
Protection Agency, 269 F.3d 626, Case: l:18-cv-00395-MWM-SKB Doc #: 30 Filed: 03/22/19
Page: 5 of 11 PAGEID #: 432 6 628-29 (6th Cir. 2001)). Barrett’s order allowed this matter to go
forward, to the extent that Defendant Hamilton County Juvenile Court seeks to dismiss the
claims against it, Defendant Hamilton County Juvenile Court’s Motion to Dismiss is DENIED.
The Sixth Circuit Court’s decision on 1/20/2021 appears to totally disregard the fact that
Magistrate Kelley of HCJC actually signed/granted Bowie’s formal motion to testify by

18

telephone or Skype that was submitted by Attorney James Whitfield prior to hearing time, then at
hearing time Magistrate Kelley denied the same motion that was already granted. This action is a
direct violation of the ADA and the Rehab Act. To initially grant a disabled person requested
reasonable accommodations and then deny them at hearing time is clearly a breach of contract.
The Sixth Circuit disregarded the process that Attorney Whitfield followed and how Magistrate
Kelley initially signed/granted Bowie’s formal motion of requested accommodation, the court
mentioned that when Bowie’s counsel presented the motion to appear by telephone or Skype on
the morning of the hearing, Magistrate Catherine Kelley indicated that conducting the hearing
via telephone would “interfere with the ability of the court to properly observe and assess the
creditability of Mr. Bowie.” However, the record shows that Magistrate Kelley actually
signed/granted Bowie’s formal request per Attorney Whitfield’s direct testimony on transcript
dated 3/23/2018, page 9. If Magistrate Kelley felt that Bowie needed to appear, then the formal
motion to testify by telephone or Skype that was presented to HCJC prior to the actual hearing
should have been denied, which would have possibly given Bowie the opportunity to start
making his way to Cincinnati from Columbus, however, challenging it may have been.
When Magistrate Kelley granted/signed Bowie’s formal motion to testify by telephone or
Skype prior to hearing time that morning, Attorney Whitfield notified the Plaintiff by telephone
that the Magistrate had approved his requested, however that opportunity to participate in the
court proceedings on 6/20/2017 did not happen because at hearing time, the motion that was
initially granted/signed was denied, therefore causing the court to breach their contract with the
Plaintiff which is a clear violation of ADA and the Rehab Act especially when the Magistrate
knew full well that the formal motion requested reasonable accommodations was attached to the
Plaintiff s doctor’s letter explaining his condition and difficulty traveling.

19

Further, when Attorney Whitfield filed an objection to the Magistrate’s decision, it
clearly outlined ADA Title II violations which was ignored by Judge Sylvia Hendon and HCJC
at a hearing on 3/23/2018 (see court transcript, page 7-9) & (Objection to Magistrate’s Decision
Amended dated 7/25/2017, Appendix C). Bowie’s objection to the magistrate’s decision outlined
ADA violations and the court never tried to correct this matter. In King v Marion Circuit Court,
for the purpose of determining intentional discrimination, the court used the Plaintiffs objection
to the Magistrate’s order which outlined how denying requested reasonable accommodations was
a violation of the ADA Title II, essentially denying participation in court proceedings, later the
court found that King’s requested mediation service was not considered a part of the judicial
process, however, Bowie’s requested service of being able to testify in a court hearing is
considered apart of the judicial process, and Bowie was totally denied of testifying or
participating in a court proceeding that he initiated/filed, essentially denied Bowie of the judicial
process. Bowie’s objection to the magistrate decision should be used to determine intentional
discrimination, as well. The Defendants violated ADA Title II and The Rehab Act by failing to
provide Bowie with requested reasonable accommodations as it failed to provide Plaintiff with
auxiliary aids and services necessary for him to participate/testify injudicial services / court
hearing which was a “service, program, or activity” of a public entity. The defendants failed to
provide a reasonable modification or show that doing so would have caused a fundamental
alteration or undue burden, just stating that Bowie needed to be present to judge his demeanor
should not deny Bowie the opportunity to participate in court proceedings since he is disabled,
the defendants could have offered an alternate solution such as a continuance or allowed Bowie
to attend court by video conference from Columbus, Ohio.

20

The Sixth Circuit Court disregarded Judge Barrett’s order on 3/22/2019 and allowed the
defendants to move for judgement on their pleadings which covered the same information that
was already ruled on by Judge Barrett, that’s when something usual occurred which involved
Magistrate Bowman accusing Judge Barrett of making a mistake and Bowman felt like Barrett
did not follow her recommendation to dismiss the Plaintiffs case. Essentially, Magistrate
Bowman overruled Judge Barrett’s order dated 3/22/2019. The Magistrate claimed “that the
Plaintiff failed to state a claim under the ADA or RA because he did not adequately plead that
the Juvenile Court had denied him access to the court because of his disability, noting that
according to the docket entry that Magistrate Kelley claims that Bowie was denied because it
would interfere with the ability of the court to properly observe and assess the credibility of Mr.
Bowie.” However, it is Attorney Whitfield’s direct testimony that Magistrate Kelley
signed/granted the formal motion for Bowie to testify by telephone or video conferencing just
ahead of the hearing. Once Magistrate Kelley signed/granted the formal motion allowing
Bowie’s requested reasonable accommodation, then denied it at hearing time, is a clear violation
of the ADA, the RA and a breach of contract.
Per Attorney Whitfield’s direct testimony on court transcript dated 3/23/2018, (HCJC,
see page 9). If Magistrate Kelley felt that Bowie needed to appear, then the formal motion to
testify by telephone or Skype should have been denied which would have possibly given Bowie
the opportunity to start making his way to Cincinnati from Columbus, however, challenging it
may have been. When Magistrate Kelley granted/signed Bowie’s formal motion to testify by
telephone or Skype prior to hearing time, Attorney Whitfield notified the Plaintiff by telephone
that the Magistrate had approved his requested, however that opportunity to participate in the
court proceedings on 6/20/2017 was denied, therefore causing the court to breach their contract
21

with the Plaintiff which is a clear violation of ADA and the Rehab Act especially when the
Magistrate knew full well that the formal motion requested reasonable accommodations was
attached to the Plaintiff s doctor’s letter explaining his health condition and difficulty traveling
meaning difficulty appearing in person to testify.
The Sixth Circuit Court erred regarding the issues that were raised on the Plaintiffs
Second Amended Complaint regarding 1) filing an ADA & Rehab Act claim was granted as it
relates to suing Hamilton County Juvenile Court, Hamilton County, Ohio and Magistrate Kelley
and Judge Hendon in their official capacity was prepared and filed in accordance with Judge
Barrett’s order dated 3/22/2019 which allowed this case to proceed. The subject matter listed
above was granted as it relates to bringing an ADA and Rehab Act claim per Judge Barrett’s
order. However, Magistrate Bowman and Judge McFarland dismissed the above stated claims
alleging that the Plaintiff could not meet the elements of an Americans with Disabilities Act
(ADA) claim or a Rehab Act (RA) claim, however, Judge Barrett already ruled that this matter
could proceed on 3/22/2019. The Plaintiff outlined his claim below:
A plaintiff must show 1). That he is a qualified individual with a disability; Bowie has
submitted his disability documents to HCJC numerous times from his doctor which was accepted
2) that he was either was excluded from participation in or denied the benefits of a public entity’s
service, programs, or activities or was otherwise discriminated against by the public entity;
Bowie was excluded/denied from testifying at a court proceeding on 6/20/2017 after being
granted requested reasonably accommodations prior to hearing time. 3) that such exclusion,
denial of benefits, or discrimination was by reason of his disability. Although, the defendants are
claiming that Bowie was excluded for not being present, the court was supposed to advise the
Plaintiff and his attorney of this issue prior to hearing time, instead Magistrate Kelley

22

signed/granted the Plaintiff requested reasonable accommodations ahead of the actual hearing,
and then at hearing time abruptly denied those same accommodations that she previously
granted.
Bowie’s attorney pleaded with the court to please allow “one” continuance to give Bowie
who resides in Columbus, Ohio and would need to travel to Cincinnati, Ohio, an opportunity to
appear which was denied without any clear explanation. Bowie’s disability causes some
challenges with traveling which was previously documented by Bowie’s doctor and submitted to
HCJC several times, however, on 6/20/2017 those documents were submitted again, Magistrate
Kelley reviewed those documents and signed them, therefore, Bowie’s inability to be present on
6/20/2017 was a direct result of his disability, see Attorney Whitfield’s testimony on 3/23/2018
(see court transcript, page 9), if Magistrate Kelley had an issue with another formal requested
reasonable accommodations filing ahead of the hearing, it was never brought to Attorney
Whitfield’s attention, Magistrate Kelley did not complain about Whitfield filing the motion that
morning, instead Magistrate Kelley granted the requested reasonable accommodations prior to
the hearing that morning, then at hearing time, abruptly denied Bowie’s requested reasonable
accommodations without prior notice stating “under the need to evaluate his credibility”,
however, according to the ADA, Title II & the Rehab Act, when reasonable accommodations are
denied, there must be some form of communication to alternately accommodate the disabled
individual, clearly that did not occur, Bowie was left out of the hearing and waiving his
appearance was not accommodating, as it resulted in a dismissal of all of Bowie’s filings even
though his attorney was present. The Plaintiff initiated the contempt hearing because his children
were being withheld illegally, when Magistrate Kelley denied Bowie’s access to court, it resulted
in denying his access to participate in a court proceeding where all his filings were dismissed and

23

Bowie was found guilty of contempt, clearly Magistrate Kelley’s actions were discriminatory
and intentional.
Further, the Sixth Circuit Court erred as it relates to Bowie assuming that a motion
filed the morning of the hearing would be granted because other similar motions have been
granted in the past, but overlooked or disregarded the fact that Magistrate Catherine Kelley
signed/granted the formal motion that was provided to the court just ahead of the scheduled
hearing, the Plaintiff has no control when his attorney, James Whitfield filed the motion,
however, Magistrate Catherine Kelley had an opportunity to deny the motion instead it was
actually granted by the Magistrate. Once Magistrate Kelley granted the formal motion of
Bowie’s requested reasonable accommodations, the court was in contract with the Plaintiff to
provide the requested accommodations, so after granting the formal motion but denying those
accommodations at hearing time is discriminatory and strategic. Attorney Whitfield and Bowie
felt that if Magistrate Kelley had a change of heart and needed Bowie to appear, it would have
been reasonable to grant one continuance to allow Bowie to appear, however, that did not
happen. Bowie was denied access to participate in court proceedings that he initiated to see his
children.
The Sixth Circuit Court claims that HCJC does not need to have an ADA policy in place,
however, HCJC is a public entity with more than 50 employees and does not have an ADA
Coordinator or a representative to assist disabled individuals with navigating through reasonable
accommodation issues and concerns. HCJC did not make any attempt to determine that Plaintiff
could participate with other persons, Magistrate Kelley just abrupted denied requested reasonable
accommodations without any resolution. According to the American Disability Act, if it is
possible to reasonably accommodate someone who is disabled, then the court must comply. Mr.
24

Bowie was denied reasonable accommodations which is a violation of his rights as a disabled
individual.
The Plaintiff was requesting that the federal court assist with enforcing ADA laws and
the Rehabilitation Act involving that “no private or public entity shall coerce, intimidate,
threaten, or interfere with any individual in the exercise of enjoyment of, or on his account of his
having exercised or enjoyed any right granted or protected by Title II of the ADA, 28 C.F.R. §
35.134(b). Plaintiff is entitled to remedies, procedures, and rights of Title II of the ADA. See 42
U.S.C. § 12133 and Section 504 of the Rehabilitation Act. In Lane v. Tennessee and Popovich v.
Cuyahoga County Common Pleas Court, lower courts were found to be discriminatory against
disabled individuals when reasonable accommodations were denied without recourse in federal
court. Title II Regulations also provide prerequisites for how individuals with disabilities must be
treated by state and local courts. The Title II Regulations contain the boilerplate language that
"No qualified individual with a disability shall, on the basis of disability, be excluded from
participation in or be denied the benefits of the services, programs, or activities of a public entity,
or be subjected to discrimination by any public entity." The regulations contain specific language
ensuring effective communication between individuals with vision, hearing, physical and
speaking disabilities, and state and local government personnel.
According to ADA Title ii, Part 35 Nondiscrimination on the Basis of Disability in State
and Local Government Services (as amended by the fina'l rule published on September 15,
2010)
Subpart B—General Requirements
§ 35.130 General prohibitions against discrimination

25

• (a) No qualified individual with a disability shall, on the basis of disability, be
excluded from participation in or be denied the benefits of the services, programs, or
activities of a public entity, or be subjected to discrimination by any public entity.
o (1) A public entity, in providing any aid, benefit, or service, may not, directly
or through contractual, licensing, or other arrangements, on the basis of
disability—
■ (i) Deny a qualified individual with a disability the opportunity to
participate in or benefit from the aid, benefit, or service;
A public entity shall make reasonable modifications in policies, practices, or procedures when
the modifications are necessary to avoid discrimination on the basis of disability, unless the
public entity can demonstrate that making the modifications would fundamentally alter the
nature of the service, program, or activity. Many entities are allowing disabled people to testify
by alternative means, in order to ensure that the disabled are given the same opportunity to
participate in court hearings, so to allow the usage of a telephone or Skype seems like a
reasonable request for a contempt/visitation hearing that the Plaintiff initiated. If a disabled
person is denied reasonable accommodations, there must be a grievance process in place, and
HCJC does not have a grievance process in place. See below:
According to Title II of ADA: § 35.107 Designation of responsible employee and adoption
of grievance procedures
• (a) Designation ofresponsible employee. A public entity that employs 50 or more
persons shall designate at least one employee to coordinate its efforts to comply with
and carry out its responsibilities under this part, including any investigation of any
complaint communicated to it alleging its noncompliance with this part or alleging
any actions that would be prohibited by this part. The public entity shall make
available to all interested individuals the name, office address, and telephone
number of the employee or employees designated pursuant to this paragraph.
• (b) Complaint procedure. A public entity that employs 50 or more persons shall
adopt and publish grievance procedures providing for prompt and equitable
resolution of complaints alleging any action that would be prohibited by this part.
As it relates to the Rehab Act: Section 794. Nondiscrimination under Federal grants and
programs; promulgation of rules and regulations:
(a) Promulgation of rules and regulations
No otherwise qualified individual with a disability in the United States, as defined in
section 7Q5 (20) of this title, shall, solely by reason of his or her disability, be excluded
from the participation in, be denied the benefits of, or be subjected to discrimination
under any program or activity receiving Federal financial assistance or under any
program or activity conducted by any Executive agency or by the United States Postal
Service. The head of each such agency shall promulgate such regulations as may be
necessary to carry out the amendments to this section made by the Rehabilitation,
26

Comprehensive Services, and Development Disabilities Act of 1978. Copies of any
proposed regulations shall be submitted to appropriate authorizing committees of the
Congress, and such regulation may take effect no earlier than the thirtieth day after the
date of which such regulation is so submitted to such committees. See also 29 CFR Part
32 and 29 CFR Part 37.
b) ’’Program or activity” defined
For the purposes of this section, the term "program or activity” means all of the
operations of (1)(A) a department, agency, special purpose district, or other instrumentality of a
State or of a local government; or
(B) the entity of such State or local government that distributes such assistance
and each such department or agency (and each other State or local government
entity) to which the assistance is extended, in the case of assistance to a State or
local government;

The Sixth Circuit Court erred in totally disregarding Judge Barrett’s order dated
3/22/2019 which allowed Bowie’s federal case to proceed once the party, Hamilton County
Board of Commission was dropped from the case which Bowie complied with. The Second
Amendment complaint was allowed to proceed due to the ruling of Judge Barrett. However,
Magistrate Bowman felt that Bowie’s case should have been dismissed again, totally
disregarding Judge Barrett’s decision on 3/22/2019 that allowed the case to proceed. Then
Magistrate Bowman challenged the district judge’s order by disagreeing with Judge Barrett, the
federal law is clear, Fed. R. Civ. P. 72(a). When objections to a magistrate judge’s report and
recommendation are received on a dispositive matter, the assigned district judge “must determine
de novo any part of the magistrate judge’s disposition that has been properly objected to.” Fed.
R. Civ. P. 72(b)(3). After review, the district judge “may accept, reject, or modify the
recommended decision; receive further evidence; or return the matter to the magistrate judge
with instruction.”
27

In Magistrate Bowman’s January 9, 2019 R&R, it was recommended that the Defendants
Motion to Dismiss (Doc 13) be granted, Plaintiffs Motion to Amend (Doc 16) be denied; all
remaining pending motion (Doc 2, 9, 18) be denied as moot; and this case be closed, However,
Judge Barrett’s order dated 3/22/2019 already decided these matters and allowed the case to
proceed, in a highly usually and erroneous move, the Defendants filed a pleading requesting that
the Plaintiff s case be dismissed again, using the same subject matter that Judge Barrett already
ruled on, Judge Barrett’s order on 3/22/2019 denied the defendants motion to dismiss the
Plaintiff s case. Magistrate Bowman stated the “Judge Barrett allowed Plaintiff to bring a claim
against Hamilton County, Ohio and Hamilton County Juvenile Court against her
recommendations, see the foot note on page 10, of notice dated 5/31/20 where Magistrate
Bowman claims that Judge Barrett made a mistake by allowing the case to proceed, where in
Federal law does a Magistrate overrule a Judge. Once Barrett made the ruling to allow the
federal case to proceed, then it should have been allowed to proceed.
Judge Barrett’s order dated 3/22/2019 accepted the Plaintiffs disability noted on page 2,
listed under “I. Background, According, to his proposed Second Amended Complaint, Plaintiff
has a neurological condition which makes it difficult for him to travel from Columbus to
Cincinnati. A hearing was scheduled in his case for June 20, 2017. Plaintiff requested to
participate in the hearing by telephone or video conference. Plaintiffs request was supported by
letters from his doctor. Plaintiff had previously been permitted to appear at a hearing by
telephone. However, on the day of the hearing, Magistrate Catherine Kelley denied Plaintiffs
request. Magistrate Kelley’s decision was later upheld by Judge Sylvia Hendon. Plaintiff claims
that allowing him to participate by phone was a reasonable accommodation of his disability.

28

Plaintiff further claims that the failure to provide him with this accommodation resulted in him
being denied access to the court.
The Plaintiff brings his Second Amended Complaint, seeks injunctive relief and
compensatory damages under Title II of the ADA and The Rehab Act which prohibits entities
receiving federal funds from discriminating against individual with disabilities. Judge Barrett
allowed the Plaintiff to add the following parties, Hamilton County, Ohio, & Magistrate
Catherine Kelley and Judge Sylvia Hendon in their official capacities as the Plaintiff sought
injunctive relief involving the ADA and RA as it relates to being reasonable accommodated and
compensatory damages in the amount of $125,000 under Title II of the ADA and the Rehab Act
for being intentionally discriminated against. State entities that accept federal funding knowingly
and voluntarily waive their sovereign immunity to suit under 504 of the Rehab Act. Pace v.
Bogalusa City Sch. Bd. 403 F. 3d 272, 274.
Further, “Under Analysis, A. Motion to Dismiss, decided against dismissing the
Plaintiff’s case. Judge Barrett’s order stated, the basic pleading essentials are not abrogated in
pro se cases. Wells v Brown, 891 F. 2d 591, 594 (6th Cir. 1989). A pro se complaint must still
contain sufficient factual matter, accepted as true, to state a claim to relief that is plausible on its
face” Barrett v. Luttrell, 484 Fed. Appx. 784, 78 6 (6fh Cir. 2011) (quoting Ashcroft v. Iqbal, 556
U.S. 662, 677, 129 S. Ct. 1937, 1949, 173 L. Kd 2d 868 (2009). Plaintiff has clarified that he is
not seeking relief in a pending child (visitation) support case, but instead seeking assistance in
receiving ADA accommodations. The Court notes that the Supreme Court has explained that
Title II of the ADA creates an affirmative obligation to accommodate persons with disabilities in
the administration ofjustice” Tennessee v. Lane, 541 U.S. 509, 533, 124 S. Ct. 1978, 1994, 158
L. Ed. 2d 820 (2004).

29

Judge Barrett’s conclusion dated 3/22/2019 is as follows:
HI. CONCLUSION Based on the foregoing, the Magistrate Judge’s January 9, 2019
R&R (Doc. 25) is ADOPTED in PART. Accordingly, it is hereby ORDERED that: 1.
Defendant’s Motion to Dismiss (Doc. 13) is DENIED, 2. Plaintiffs Motion to Amend (Doc. 16)
is DENIED in PART and GRANTED in PART; 3. Motion for Temporary Restraining Order
(Doc. 2) is DENIED as MOOT; 4. Plaintiff s Amended Motion for Temporary Restraining Order
(Doc. 9) is DENIED; and 5. Plaintiffs Motion for Appointment of Counsel (Doc. 18) is
DENIED. 6. Plaintiff shall file his Second Amended Complaint in conformity with this Order
within fourteen (14) days of entry of this Order.
IT IS SO ORDERED, /s/ Michael R. Barrett
JUDGE MICHAEL R. BARRET

30

XIII. Reasons for Granting the Petition
This Court has granted certiorari in time past on the first question presented by this
petition. Plaintiff request that this Court grant the petition and resolve the issue of the states'
Eleventh Amendment immunity from suits for money damages brought by private individuals
under Title II of the ADA and the Rehab Act. There is a strong need for this Court’s authoritative
guidance concerning this important issue of constitutional law.

•

There is a Clear Split among the Circuits Concerning whether, under Title II of
the ADA and (the Rehab Act), Congress has validly abrogated state Sovereign
Immunity under the Eleventh Amendment.

This Court should grant review in order to settle the disagreement among the lower courts
concerning whether Congress validly abrogated the states' Eleventh Amendment immunity in
enacting Title II of the Americans with Disabilities Act. After this Court's decision in Garrett,
holding that the states are immune from suits for money damages under Title I of the ADA, the
lower circuit courts have struggled to address Title II in relation to the Eleventh Amendment.
Noting that among the rights protected by the Due Process Clause of the Fourteenth
Amendment is the right of access to the courts", the court, without citation to authority, asserted
that "Itjhe evidence before Congress when it enacted Title II of the [ADA] established that
physical barriers in government buildings, including courthouses and in the courtrooms
themselves, have had the effect of denying disabled people the opportunity to access vital
services and to exercise fundamental rights guaranteed by the Due Process Clause", and that
Congress enacted Title II as an appropriate means to guarantee meaningful enforcement’ of the
constitutional rights of the disabled," including the right of access to the courts." (Popovich, 276
F.3d at 815-16).

31

The Sixth Circuit has joined the Second Circuit in holding that Title II plaintiffs may
overcome state immunity in certain factual circumstances, while the Ninth Circuit simply allows
all claims against public entities. However, the Sixth Circuit has ignored the facts of this
disability discrimination case.
There is potential for this case to impact disabled individuals on a local and national
level. Hamilton County Juvenile Court has refused to incorporate an ADA policy. However,
under the Rehabilitation Act and the Americans with Disability Act, Hamilton County Juvenile
Court is a public entity with more than 50 employees, located in Cincinnati, Ohio (one of the
largest cities in Ohio) and does not have an ADA Coordinator to assist disabled individuals with
navigating through the court system. If HCJC had an ADA Coordinator in place, disabled
individual would have assistance with being reasonable accommodated in order, to participate in
court proceedings and not be denied court access which is highly discriminatory.
Lastly, the Sixth Circuit Court erred by disregarding a default judgment request by the
Plaintiff filed on 8/15/2019. Plaintiff requested a default judgement be issued into the court
record against Judge Sylvia Hendon and Magistrate Catherine Kelly as both parties were served
on 6/24/2019 and an answer was due on 7/15/2019, however no answer was filed by the
deadline. In support of this request Plaintiff relies upon the record in this case which does not
show a filing by 7/15/2019. In accordance with Federal Rules, if the defendant does not file
anything within the deadline for filing a response, he or she is in “default.” You may request the
Clerk to enter a default into the Court record. After a default is entered by the Clerk, you may
file a motion for default judgment. Default judgment is a judgment awarding the Plaintiff the
relief sought in the complaint because the Defendant failed to respond to the complaint or
otherwise make an appearance in Court. See Fed. R. Civ. P. 55. The Sixth Circuit Court said that

32

an answer was filed on 4/18/2019, however, Magistrate Kelley and Judge Hendon were not
served officially until 6/24/2019 and let the record show that no answer was timely filed.

33

XIV. CONCLUSION
For the foregoing reasons, Mr. Bowie respectfully requests that the petition for a writ of
certiorari should be granted by this Court.
Respect fully submitted,

Date: April 16, 2021

S\siA

Brandon Bowie, Pro Se
Plaintiff
1608 Brentnell Ave.
Columbus, OH 43219
bj bowie614@yahoo. com

34

